                                                                 Issue Date
                                                                          August 4, 2011
                                                                 Audit Report Number
                                                                              2011-NY-1011




TO:         Balu Thumar, Acting Director, Office of Public Housing, Newark, New Jersey
                             Field Office, 2FPH



FROM:       Edgar Moore, Regional Inspector General for Audit, New York/New Jersey
                           Region, 2AGA

SUBJECT: The Housing Authority of the City of Elizabeth, Elizabeth, NJ, Had Weaknesses
         in Its Capital Fund Program’s Financial Controls


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Housing Authority of the City of Elizabeth, New Jersey’s,
             (Authority) administration of its capital fund program (CFP) in support of the
             U.S. Department of Housing and Urban Development (HUD) Office of the
             Inspector General’s (OIG) goal to contribute to improving HUD’s execution and
             accountability of fiscal responsibilities. We selected the Authority based upon a
             risk assessment, which considered HUD’s designation of the Authority as
             moderate risk, the size of its CFP and the lack of recent CFP oversight by either
             HUD or OIG. The audit objectives were to determine whether Authority officials
             (1) obligated and expended capital funds in accordance with HUD regulations,
             and (2) implemented a financial management system in compliance with program
             requirements.


 What We Found

             Authority officials did not always obligate or expend capital funds in accordance
             with program regulations, nor implement a financial management system in
           compliance with program requirements. Specifically, Authority officials obligated
           and expended funds without adequate supporting documentation, and did not
           ensure that CFP financial monitoring and reporting was complete and accurate.
           We attribute these conditions to Authority officials’ unfamiliarity with HUD
           regulations and weaknesses in the Authority’s financial controls over its CFP.
           Consequently, approximately $1.8 million was improperly recorded as obligated
           in HUD’s Line Of Credit Control System (LOCCS), $95,626 was drawn down
           without adequate documentation, reclassification of $394,487 in administrative
           costs to other budget line items was unsupported, and the status of CFP funds was
           not effectively monitored.

What We Recommend
           We recommend that the Acting Director of HUD’s New Jersey Office of Public
           Housing, instruct Authority officials to ensure that the $1.8 million of CFP funds
           are properly obligated, provide adequate supporting documentation for the
           $95,626 of CFP drawdowns, provide documentation to adequately support
           reclassification of administrative costs of $394,487 to other budget line items, and
           strengthen financial controls over the administration of its CFP funds.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.


Auditee’s Response


           We discussed the results of our review with Authority officials during the audit
           and at an exit conference held on July 13, 2011. Authority officials provided their
           written comments at the exit conference and generally agreed with the draft report
           findings and have promised to take action responsive to the recommendations.
           The complete text of the Authority’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                     4

Results of Audit
      Finding 1: The Authority Had Weaknesses in its Capital Fund Program’s   5
                 Financial Controls

Scope and Methodology                                                         10

Internal Controls                                                             12

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use          14
   B. Auditee Comments and OIG’s Evaluation                                   15




                                            3
                      BACKGROUND AND OBJECTIVES


The City of Elizabeth, New Jersey Housing Authority (Authority) is a non-profit corporation
created in 1938 under federal and state housing laws as defined by state statute for the purpose of
engaging in the development, acquisition and administrative activities of the low-income housing
program, and other programs with similar objectives for low and moderate income families
residing in the City of Elizabeth. The Authority is governed by a seven member board of
commissioners, and the day-to-day operations of the Authority are managed by an executive
director appointed by the board of commissioners.

The Authority is responsible for the development, maintenance and management of public
housing for low and moderate income families residing in Elizabeth, New Jersey. The Authority
received funds under HUD’s low-rent, capital fund, shelter plus, Hope IV, and housing choice
voucher programs; and operates 1,023 low-rent and 281 subsidized mixed finance units. The
Authority received an average of $2.5 million annually through the capital fund program in fiscal
years 2008 through 2010. Capital fund program funds are used for repairs, major replacements,
upgrading and other non-routine maintenance work to maintain the Authority’s units in a clean,
safe and good condition.

The objectives of the audit were to determine whether Authority officials (1) obligated and
expended capital fund program funds in accordance with HUD regulations, and (2) implemented
a financial management system in compliance with program requirements.




                                                4
                                     RESULTS OF AUDIT

Finding: The Authority Had Weaknesses in its Capital Fund Program’s
         Financial Controls
Authority officials did not always obligate or expend capital funds in accordance with program
regulations, nor implement a financial management system in compliance with program
requirements. Specifically, Authority officials obligated and expended funds without adequate
supporting documentation, and did not ensure that CFP financial monitoring and reporting was
complete and accurate. We attribute these conditions to Authority officials’ unfamiliarity with
HUD regulations and weaknesses in the Authority’s financial controls over its CFP.
Consequently, approximately $1.8 million was improperly recorded as obligated in HUD’s Line
of Credit Control Systems (LOCCS), $95,626 was drawndown without adequate documentation,
reclassification of $394,487 in administrative costs to other budget line items was unsupported as
to its eligibility, and the status of CFP funds was not effectively monitored.


    Improperly Reported
    Obligation of Funds

                 Authority officials improperly reported obligating $1.8 million of CFP funds
                 based upon budgeted amounts, inadequate supporting documents, and in an
                 untimely manner. HUD PIH handbook 7485.1, REV-4, chapter 10, section 10-8
                 defines funds obligated as the cumulative amount of modernization commitments
                 as evidenced by a contract execution, which is defined as execution of the
                 contract by both the contractor and the authority. Regulations at 24 CFR
                 905.120(a)(1) require that 90 percent of CFP funds be obligated within 24 months
                 of becoming available to an authority, and Regulations at 24 CFR 968.112 and
                 HUD Public and Indian Housing notice 2007-09 impose limits on the amount of
                 funds that can be charged to soft costs.1

                 Authority officials reported in LOCCS that all of the Authority’s approximately
                 $2.6 million in 2009 CFP funds were obligated as of May 2010. However, upon
                 our request in January 2011 for documentation to support the reported obligation,
                 Authority officials advised that $1.3 million, or 51 percent, should have been
                 reported as obligated, and that LOCCS would be adjusted to reduce reported
                 obligations by $1.2 million. As a result, $1.2 million is still available for other
                 obligations. Authority officials attributed this error to a computer error;
                 nevertheless, they have until September 14, 2011 to obligate these funds in a
                 timely manner.


1
  Regulations at 24 CFR 968.105 defines hard costs as physical improvement costs in development accounts 1450
through 1475 and soft costs as non-physical improvement costs, which exclude any costs in development account
1450 through 1475.


                                                       5
           Obligations of 2008 CFP funds were not properly made. Regulations at 24 CFR
           905.120(a)(1) require that 90 percent of CFP funds be obligated within 24 months
           of becoming available to an authority. While Authority officials reported in
           LOCCS that more than $2.4 million had been obligated, Authority records
           disclosed that less than $2.3 million had been obligated. In addition, $200,000
           was obligated based upon a Board-approved budgeted amount for a contract as
           opposed to an actual executed contract, $52,379 lacked adequate documentation
           to support the obligation, and $421,843 was obligated for 4 contracts ranging
           from 4 days to 6 months after the required obligation deadline of June 12, 2010.
           Consequently, $608,992 ($853,645 not properly obligated minus $244,653- the
           allowance for 10 percent of the $2.4 million 2008 CFP grant) was not properly
           obligated.

           Further, a 2009 HUD review of the Authority’s obligation of CFP funds awarded
           under the American Recovery and Reinvestment Act also found that Authority
           officials obligated those funds based upon budgeted amounts as opposed to actual
           contracts. As a result, the Authority had to adjust LOCCS to reduce reported
           obligations by 16 percent.


Unsupported Drawdown of
Funds

           Authority officials drew down $95,626 without adequate supporting
           documentation. Regulations at 24 CFR 85.20(b)(2) provide that accounting
           records be adequately maintained to identify the source and use of funds, and
           Appendix A, section C (1) of 2 CFR part 225 requires that allowable costs be
           adequately documented. A drawdown of $13,635 was made from the 2005 CFP
           and two draw downs of $70,121 and $11,870, respectively, were made from the
           2007 CFP funds without evidence of either an invoice or canceled checks, or an
           entry to the general ledger. Authority officials said that these drawdowns were
           made to close-out the grants, although there was no documentation. We attribute
           these unsupported drawdowns to internal control weaknesses over the Authority’s
           accounting system.

Weaknesses in CFP Financial
Reporting and Monitoring

           The Authority’s financial records did not always reconcile with LOCCS, and
           year–end adjustments were not adequately supported. Regulations at 24 CFR
           85.20(b)(2) and (6) provide that housing authorities must maintain adequate
           accounting records regarding obligated and unobligated balances, and that
           accounting records must be supported by source documents. While the
           Authority’s financial records reported expenses of $190,272 for administrative
           costs related to the 2007 CFP funds, LOCCS reported that $232,554 had been



                                           6
                 drawn down related to these funds, which is the maximum amount generally
                 allowed for administrative costs. Authority officials could not account for the
                 $42,282 difference.

                 In addition, year-end adjustments to reclassify costs among CFP budget line items
                 were not adequately supported. The Authority reclassified a total of $394,487 from
                 administrative costs to other line items as follows:


                                              Amounts Reclassified
                 CFP Administrative Management Fees        Dwelling Non-         Inter-
                 Year Costs         Improvement and        Structures Dwelling Company
                                                 Costs                Structures Account
                 2007  ($ 74,254)     $74,254       -           -         -
                 2008  ($162,430)     $43,578       -       $41,424    $77,428
                 2009  ($157,803)                $57,306 $57,306                 $43,191
                 Total ($394,487)     $117,832   $57,306 $98,730       $77,428 $43,191

                 Authority officials said that these reclassifications were made to reconcile the
                 Authority’s records with that reported in LOCCS. LOCCS reported that 10 percent
                 of the funds were drawn down; however, without these reclassification entries, the
                 Authority’s administrative cost charges would have exceeded the 10 percent
                 regulatory limitation.2 In addition, there was no documentation to support that the
                 costs that were reclassified were allowable charges to the line items to which they
                 were charged. These entries to reclassify expenses to other budget line items should
                 have supporting documentation as per regulations at 24 CFR 85.20(b)(2), which
                 require that accounting records be adequately maintained to identify the source and
                 use of funds, and appendix A, section C(1), to 2 CFR Part 225, which requires that
                 allowable costs be adequately documented. Further, without these reclassifications,
                 the Authority’s administrative costs would have exceeded the ten percent regulatory
                 limitation by $272,784 ($31,972, $83,009 and $157,803 for 2007, 2008 and 2009,
                 respectively).

                 Authority officials explained that $114,612 of the $157,803 reclassified in the 2009
                 CFP funds should have been charged to fees, costs, and dwelling structure because it
                 represented payroll and benefit costs for construction inspectors; however, there
                 were no timesheets to substantiate these costs. HUD PIH Notice 2007-9,
                 supplement, section 5-3 requires a timesheet to substantiate construction
                 supervisors’ time and only actual documented costs pertaining to construction
                 activities can be charged as a direct expense. If the costs are not substantiated by
                 time sheets then they should have been charged to the capital fund program


2
 Regulations at 24 CFR Part 968.112 provide that costs charged to the administrative cost budget line item may not
exceed 10 percent of the total grant, and under HUD’s asset management-based accounting, an Authority does not
need supporting documents for the costs incurred up to this limit if the funding was provided from a 2007 or later
year’s grant.


                                                        7
             management fee. Authority officials could not provide an explanation or
             documentation to support the other reclassifications.

             Authority officials also lacked an effective system to track and monitor CFP
             obligations. While Authority officials maintained an excel file as a contract
             register, they did not clearly track which years CFP funds were being used to
             obligate and expend contract amounts. In addition, contract copies and purchase
             orders did not identify the source of the funding. Some contracts were funded
             from multiple years’ CFP funds and/or by various Authority programs; and
             officials could not readily identify contracts funded from a particular CFP fund
             year. For example, after receiving a list of contracts reported to have been
             funded from the 2008 CFP, similar information was requested for the 2007 and
             2009 CFP; however, this required Authority officials to revise multiple times the
             2008 data previously provided to avoid duplicate and erroneous reporting of the
             use of the three years’ funding. We attribute this deficiency to Authority
             officials’ failure to establish adequate controls over the Authority’s financial
             system. Since regulations generally require that CFP funds be obligated and
             expended within two and four years, respectively, from the date funds become
             available, it is important that housing authorities be able to efficiently track the
             source and use of each year’s funding.


Conclusion

             Authority officials obligated and expended capital funds without adequate
             supporting documentation, and did not ensure that CFP financial reporting and
             monitoring was accurate and complete. We attribute these conditions to
             Authority officials’ unfamiliarity with HUD regulations and weaknesses in the
             Authority’s financial controls over its CFP. Consequently, approximately
             $1.8 million was improperly recorded as obligated in HUD’s Line Of Credit
             Control Systems (LOCCS), $95,626 was drawn down without adequate
             documentation, reclassification of $394,487 in administrative costs to other
             budget line items were unsupported, and the status of CFP funds was not
             effectively monitored.

Recommendations

             We recommend that the Acting Director of the New Jersey Office of Public Housing
             instruct Authority officials to


             1A.    Ensure that the $1,239,832 of 2009 CFP funds that were erroneously
                    reported as obligated in LOCCS are properly obligated by September 14,
                    2011 in accordance with regulations at 24CFR 905.120(a)(1), thus
                    ensuring that the funds are put to better use. If funds are not properly



                                               8
      obligated, appropriate action should be taken to recapture the funds in
      accordance with 24 CFR 905.120.

1B.   Provide documentation to support that $608,992 of the Authority’s 2008
      CFP funds was properly obligated. If proper documentation is not
      provided, or obligations cannot be supported, appropriate action should be
      taken to recapture the funds in accordance with 24 CFR 905.120.

1C.   Strengthen controls over the obligation of CFP funds to better ensure that
      funds are properly supported by contracts and executed in a timely manner
      before being recorded as obligated.

1D.   Provide adequate support for the $95,626 in unsupported drawdowns. If
      adequate support cannot be provided, reimbursement to the program
      should be made from non-federal funds.

1E.   Reconcile the $42,282 difference between the Authority’s financial
      records and the amount reported in LOCCS for the 2007 CFP
      administrative costs, and if the amount is reallocated to a budget line item
      other than administrative costs, enure that there is proper support for such
      adjustment.

1F.   Provide documentation to support the reclassification of $394,487 of
      administrative costs to other budget line items so that HUD can determine
      whether the reclassification was proper. If adequate support cannot be
      provided, reimbursement to the program should be made from non-federal
      funds.

1G.   Strengthen procedures so that the source and use of CFP funds can be
      tracked to ensure more effective compliance with regulations at 24 CFR
      85.20(b)(2).




                                9
                        SCOPE AND METHODOLOGY

The review focused on whether Authority officials obligated and expended capital funds in
accordance with HUD regulations, and implemented a financial management system in
compliance with program requirements. To accomplish our objectives, we

       Reviewed HUD CFP regulations and program requirements.

       Obtained an understanding of the Authority’s financial and management controls.

       Interviewed HUD field office staff, Authority officials, and the Authority’s independent
       public accountant.

       Reviewed the Authority’s financial and management data in LOCCS, HUD’s Financial
       Assessment Submission-Public Housing (FASS-PH), and HUD’s Public and Indian
       Housing Information Center (PIC) system. Assessment of the reliability of the data in
       these systems was limited to the data sampled, which was reconciled to the Authority’s
       records.

       Reviewed the Authority’s performance evaluation reports, budgets, financial data
       schedules, procurement records, contract files and general ledgers; as well as HUD’s
       approved annual plans. .

       Reviewed HUD monitoring reports, a Government Accountability Office (GAO) report
       and independent public accountant audit reports.

       Analyzed the Authority’s CFP 2007 through 2009 obligations and disbursements.

       Selected, a sample of $2.8 million in CFP drawdowns, representing 63 percent of the $4.5
       million for hard and soft cost budget items drawn down during the audit period, to
       reconcile to the general ledger and supporting documentation. The sample selection was
       not statistically based, but identified the highest drawdowns in the categories selected,
       and therefore, the results are not projected to the universe.

       Reconciled transfers to the Authority’s low rent operations to the general ledgers.

       Reconciled the 2007 to 2009 CFP administrative cost drawdowns per the Authority’s
       general ledgers to LOCCS, to ensure compliance with regulations.

The audit generally covered the period from July 1, 2008 through December 31, 2010. We
extended the period as needed to accomplish our objectives. We performed our audit fieldwork
from January 2011 through April 2011 at the Authority’s office located at 688 Maple Avenue,
Elizabeth, New Jersey.




                                               10
We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective(s).




                                               11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                      Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

                      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

                      Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

                      Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to the effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.


                                                 12
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

                    The Authority did not obligate and expend its capital funds in accordance
                    with HUD regulations, and lacked effective controls to ensure that its CFP
                    financial information and monitoring was accurate, current and complete.
                    (Refer to Finding)




                                              13
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                  Recommendation        Unsupported      Funds to be put to
                      number                     1/           better use 2/
                         1A                                     $1,239,832
                         1B                 $608,992
                         1D                   95,626
                         1E                   42,282
                         1F                  394,487             ________
                        Total             $1,141,387            $1,239,832


1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this case, if the Authority implements our
     recommendations to ensure that over $1.2 million in funds are properly obligated, HUD
     will be ensured that $1,239,832 will be put to better use.




                                             14
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         15
Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 3




                         16
Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4




                         17
Ref to OIG Evaluation   Auditee Comments




Comment 5




Comment 6




Comment 7




                         18
Ref to OIG Evaluation   Auditee Comments




Comment 8




                         19
                           OIG Evaluation of Auditee Comments

Comments 1 The auditee comments were reviewed and discussed during the exit conference, at
           which Authority officials agreed that there were weaknesses in the controls over
           the obligation of CFP funds. At that time, Authority officials did not provide any
           additional documentation to address the findings, and they did not opt to revise
           their comments.

Comment 2     Authority officials acknowledged that $1.3 million of the 2009 CFP funds had
              been erroneously recorded as obligated, but stated that they have plans to award a
              contract in August 2011, which will ensure that the 2009 CFP funds are obligated
              prior to the September 11, 2011 deadline. A copy of an executed contract will
              have to be provided to HUD during the audit resolution process so HUD can
              determine whether the funds were obligated in accordance with HUD regulations.

Comment 3     Authority officials maintain that the 2008 CFP funds questioned were properly
              obligated, and list the relevant purchase orders and contract numbers. However,
              the actual supporting documents have not been made available, and will have to
              be provided to HUD during the audit resolution process so a determination can be
              made as to whether the questioned items were properly obligated in compliance
              with HUD regulations. During the exit conference, we acknowledged that, since
              regulations at 24 CFR 905.120(a)(1) require that 90 percent of CFP funds be
              obligated within 24 months of becoming available to an authority, the amount of
              unsupported 2008 CFP obligations would be $608,992 rather than $853,645;
              therefore the report was adjusted accordingly.

Comment 4     Authority officials agreed that controls over the obligation of CFP funds can be
              strengthened and are planning to develop a tracking system to better monitor the
              obligation of capital funds by grant year and line item. During the audit
              resolution process, HUD will need to evaluate the extent to which this system is
              achieving the intended control.

Comment 5     Authority officials maintain that the amounts questioned were supported because
              the amounts had been expended, but not drawndown; therefore, the amounts
              drawndown in question were made to close the applicable grants. However,
              Authority officials could not provide the supporting documents. Authority
              officials have agreed to perform a detailed review of the general ledger vs.
              drawdowns in order to provide HUD during the audit resolution process with
              detailed invoices or other supporting documents to support the drawdowns
              questioned.

Comment 6     Authority officials stated that it appears that the $42,282 is a result of entries
              erroneously made to budget line 1410 instead of budget line 1408. Officials are
              researching applicable entries made to the two budget line items, after which they
              have agreed to make appropriate entries to reconcile each budget line item with
              LOCCS. During the audit resolution process HUD will need to determine if the



                                              20
            costs questioned were eligible management improvement costs (line item 1408) in
            accordance with regulations at 24 CFR 968.112 and if the costs were incurred for
            asset management projects (AMP) and not for central office cost center (COCC)
            as required by HUD PIH notice 2007-9 supplement, section 5.5.

Comment 7   Authority officials stated that the reclassification entries were made to correct
            previous erroneous entries and that adequate supporting documentation had been
            provided. However, supporting documentation, such as timesheets to substantiate
            that the costs were appropriately charged to budget line item fees, costs, and
            dwelling structure, was not provided. Authority officials agreed to provide such
            documentation to the HUD field office as part of the audit resolution process.

Comment 8   Authority officials have agreed to strengthen procedures to better track the source
            and use of CFP funds and thereby assure compliance with regulations at 24 CFR
            85.20(b)(2). During the audit resolution process, HUD will need to evaluate the
            extent to which the strengthened procedures will provide such assurance.




                                             21
